TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  Publishing and Mail Costs Need to Be More
                 Effectively Managed to Reduce Future Costs


                                        February 28, 2011

                              Reference Number: 2011-40-025




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  HIGHLIGHTS


PUBLISHING AND MAIL COSTS NEED                       The task force believed that reducing the
TO BE MORE EFFECTIVELY MANAGED                       mailings of forms instead of eliminating them
TO REDUCE FUTURE COSTS                               was a more cautious approach, affecting fewer
                                                     taxpayers in the short term. Nevertheless, IRS
                                                     executives decided to eliminate all mailings of
Highlights                                           tax packages for U.S. Individual Income Tax
                                                     Return (Form 1040), partnerships, and
Final Report Issued on February 28, 2011             corporations in Fiscal Year 2011 in order to
                                                     meet the cost savings presented in the Fiscal
                                                     Year 2011 budget request. This could increase
Highlights of Reference Number: 2011-40-025
                                                     burden and reduce compliance for those
to the Internal Revenue Service Commissioner
                                                     taxpayers who rely on receiving these packages
for the Wage and Investment Division.
                                                     by mail.
IMPACT ON TAXPAYERS                                  As the IRS moves forward with the proposed
Part of the Internal Revenue Service’s (IRS)         cost savings or pursues other methods of saving
mission is to help taxpayers understand and          publishing and mail costs, it needs to implement
meet their tax responsibilities. To assist           sufficient controls and procedures to ensure the
taxpayers in complying with their tax filing         methodology for the decisions are documented
obligations, the IRS provides forms with             and that the data used are accurate and
instructions and publications to individual and      complete. In addition, these controls should be
business taxpayers. The Fiscal Year 2010             part of a long-term strategy to continually assess
publishing and mail budget was more than             publishing and mail costs and identify
$272 million.                                        opportunities for cost reductions and
                                                     efficiencies.
WHY TIGTA DID THE AUDIT
                                                     WHAT TIGTA RECOMMENDED
The IRS stated in its Fiscal Year 2011 budget
request that it would reduce publishing and mail     TIGTA recommended that the Commissioner,
costs by $26 million through efficiencies and        Wage and Investment Division, establish and
savings, including eliminating the automatic         implement a system of internal controls to
mailing of business tax products. This audit was     ensure that savings and cost data related to the
initiated to evaluate the IRS’s efforts to reduce    elimination or reduction of mailing tax products
publishing and mail costs for tax forms and          are current and reliable. A strategy should be
publications sent to businesses and nonprofits.      developed to ensure that publishing and mail
                                                     costs are continually evaluated. The strategy
WHAT TIGTA FOUND                                     should include goals and measures, as well as
                                                     steps to monitor the effect on taxpayer burden
The IRS is reducing publishing and mail costs,
                                                     and compliance.
but recent reductions have resulted from budget
cuts and were not part of a long-term strategy.      In their response to the report, IRS officials
In response to the cost savings proposed in the      agreed with both recommendations.
Fiscal Year 2011 budget request, the IRS             Management implemented a system to ensure
formed task forces to identify ways to achieve       that savings and cost data related to the
cost savings. A task force proposed 25 actions       elimination or reduction of mailing tax products
to reduce publishing and mail costs and lay the      are current and reliable. The IRS also
foundation for long-term implementation of cost      developed strategies to ensure that publishing
reductions for Fiscal Year 2011 and beyond.          and mail costs are continually evaluated,
However, the task force proposal did not include     including a comprehensive strategy to measure
documentation to show the methodology used to        the effect on compliance and burden of the
make the proposals, how the estimates were           current cost saving proposals.
calculated or validated, or how the IRS will
measure the results or the cost savings of the
proposals.
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                          February 28, 2011


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Publishing and Mail Costs Need to Be More
                             Effectively Managed to Reduce Future Costs (Audit # 201040019)

 This report presents the results of our review to evaluate the Internal Revenue Service’s efforts to
 reduce publishing and mail costs for tax forms and publications sent to businesses and
 nonprofits. This audit was conducted as part of the Treasury Inspector General for Tax
 Administration Fiscal Year 2010 Audit Plan and addresses the major management challenge of
 Leveraging Data to Improve Program Effectiveness and Reduce Costs.
 Management’s complete response to the draft report is included in Appendix V.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations. Please contact me at (202) 622-6510 if you have questions or
 Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
 Services), at (202) 622-5916.
                                       Publishing and Mail Costs Need to Be
                                 More Effectively Managed to Reduce Future Costs




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          The Internal Revenue Service Is Reducing Publishing and
          Mail Costs, but Recent Reductions Have Resulted From
          Budget Cuts, Not As Part of a Long-Term Strategy ..................................... Page 3
                    Recommendations 1 and 2: .............................................. Page 14


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 15
          Appendix II – Major Contributors to This Report ........................................ Page 17
          Appendix III – Report Distribution List ....................................................... Page 18
          Appendix IV – Proposed Cost Reduction Actions Approved
          for Implementation........................................................................................ Page 19
          Appendix V – Management’s Response to the Draft Report ....................... Page 21
               Publishing and Mail Costs Need to Be
         More Effectively Managed to Reduce Future Costs




                   Abbreviations

e-file      electronically file
IRS         Internal Revenue Service
U.S.        United States
                                  Publishing and Mail Costs Need to Be
                            More Effectively Managed to Reduce Future Costs




                                            Background

Part of the Internal Revenue Service’s (IRS) mission is to help taxpayers understand and meet
their tax responsibilities. To assist taxpayers in complying with their tax filing obligations, the
                                 IRS provides forms with instructions and publications to
                                 individual and business taxpayers. The Fiscal Year 2010
                                 publishing and mail budget was more than $272 million.1
                               The Media and Publications function of the IRS’s Wage and
                               Investment Division is responsible for the majority of the IRS’s
                               publishing and distribution services – most of which are
                               contracted to outside vendors. Although the Media and
Publications function funds the publishing and distribution of the majority of the IRS’s
documents, it does not control or own any of its products, and the administration of the
publishing and postal budget crosses different IRS business units, offices, and functions. Each
head of office determines printing and publishing needs of their respective areas.
The Media and Publications function has Publishing and Distribution Branches.
    •   The Publishing Branch plans, produces, or procures
        IRS print and electronic communications products
        used by the public to comply with tax filing
        requirements and obligations, and used internally
        within the IRS for tax administration. This
        encompasses document design, specifications
        writing, production planning, acquisition, and
        delivery/distribution coordination.
    •   The Distribution Branch provides planning and
        distribution services for IRS print and electronic
        communications products used by the public to comply
        with tax filing requirements and obligations, and used
        internally within the IRS for tax administration.
This review was performed in the Wage and Investment Division’s Media and Publications
function in Washington, D.C., and Submission Processing function in
New Carrollton, Maryland; the Modernization and Information Technology Services
organization’s Applications Development function in New Carrollton, Maryland; the Small

1
 Written correspondence, including notices, account for approximately 59 percent of the publishing and mail
budget.
                                                                                                          Page 1
                             Publishing and Mail Costs Need to Be
                       More Effectively Managed to Reduce Future Costs



Business/Self-Employed Division in New Carrollton, Maryland; and the Tax Exempt and
Government Entities Division in Washington, D.C., during the period April through
November 2010. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                       Page 2
                                  Publishing and Mail Costs Need to Be
                            More Effectively Managed to Reduce Future Costs




                                     Results of Review

The Internal Revenue Service Is Reducing Publishing and Mail Costs,
but Recent Reductions Have Resulted From Budget Cuts, Not As Part
of a Long-Term Strategy
Each year as part of the annual operating plan, the IRS identifies ways to reduce publishing and
mail costs. Over the last 4 years, the IRS has reduced publishing and mail costs by eliminating
the number of tax packages and publications it automatically mails to taxpayers and changing the
way it does business. For example, the IRS:
    •   Created the P Code to designate which businesses filed their tax returns by paper. This
        allowed the IRS to eliminate mailing tax packages to businesses without a P Code since
        Fiscal Year 2009.
    •   Eliminated automatic mailings to individuals
        who use paid preparers or use tax return                      Actions taken over the last 4 years
        preparation software to either electronically                   have decreased the number of
                                                                      automatic mailings. For example,
        file (e-file) their tax returns or prepare them             taxpayers who e-file or use preparers
        and submit them on paper. The IRS reports                   to prepare their tax returns no longer
        that this effort has reduced tax packages from                      receive tax packages.
        110 million in 1991 to 10.7 million in 2010.
    •   Implemented E-Ordering for approximately 19,000 partners (mainly libraries and United
        States (U.S.) Post Offices). Instead of mailing paper order forms, the IRS emailed tax
        product order forms, which are then completed, emailed back, and automatically entered
        into an inventory system. E-Ordering eliminated both the cost of mailing tax package
        order forms and the cost of manually inputting responses.
    •   Expanded direct freight shipment to outlets in Fiscal Year 2007. This allowed full carton
        orders to be mailed directly from the print contractor to the Tax Forms Outlet Program2
        and Taxpayer Assistance Center locations. This prevents the double shipping costs
        encountered in the past when products were shipped into the National Distribution Center
        and were then reshipped to outlet partners.
    •   Beginning January 2008, the IRS stopped mailing the Return of Organization Exempt
        From Income Tax (Form 990) packages. Instead, in Calendar Years 2008 and 2009, the

2
 The Tax Forms Outlet Program is a voluntary program that provides taxpayers with access to tax forms and related
products in their local communities.
                                                                                                         Page 3
                               Publishing and Mail Costs Need to Be
                         More Effectively Managed to Reduce Future Costs



       IRS mailed a postcard, the Tax Product Availability for Exempt Organization Filers
       (Form 8160-T), informing taxpayers that the IRS was not sending tax packages and
       directing them to visit the IRS’s public Internet site, IRS.gov, or to call the IRS to obtain
       the products. The IRS plans to stop mailing the Form 8160-T in December 2010.
   •   Beginning January 2011, the Federal Tax Deposit Coupon (Form 8109) will be
       discontinued to increase the number of electronic transactions. Businesses, except those
       that pay when filing their returns and have $2,500 or less in quarterly tax liabilities, will
       be required to make Federal tax deposits electronically using the Electronic Federal Tax
       Payment System. The IRS estimated that this change will save approximately
       $65 million in the first 5 years.
Although various initiatives have resulted in publishing and mail cost reductions over the last
4 years, the reductions have not been significant to the
IRS’s overall publishing and mail cost budget. The
                                                             The publishing and mail budgets for
publishing and mail budgets for the last 4 fiscal years
                                                             the last 4 fiscal years have averaged
have averaged more than $265 million, from                       more than $265 million, from
$249 million for Fiscal Year 2007 to more than               $249.4 million for Fiscal Year 2007 to
$272 million for Fiscal Year 2010. Approximately              $272.5 million for Fiscal Year 2010.
59 percent of the publishing and mail budget goes to
correspondence, including notices. There have also
been postal budget deficits that required the IRS to fund a large portion of its postage costs from
other programs.
Prior reductions in the publishing and postal budget have not been driven by a publishing and
mail cost strategic plan with program evaluations, goals, and objectives, but rather from actions
taken as part of the IRS’s annual operating plans. IRS officials stated they believe they have
made significant reductions; however, as reductions take place, other publishing and mail costs
have increased, making it difficult to determine what savings have been achieved. Nevertheless,
the IRS could not provide any documentation on total publishing and mail cost savings.
The IRS has not developed an official strategy that targets publishing and mail costs and
includes, for example, a continual assessment of opportunities for cost reductions and
efficiencies, and a plan to monitor results to ensure they are achieving expected savings and not
over burdening taxpayers. In addition, the IRS has not verified or tracked the cost savings from
prior actions.

The IRS formed task forces to identify ways to achieve the cost savings proposed
in the Fiscal Year 2011 budget submission
In July 2009, in anticipation of the IRS’s Fiscal Year 2011 budget proposal, the Office of
Taxpayer Correspondence was asked to identify publishing and mail costs that could be


                                                                                              Page 4
                                   Publishing and Mail Costs Need to Be
                             More Effectively Managed to Reduce Future Costs



eliminated. In order to respond, a group was tasked to produce estimates and recommendations
for the cost savings.
The Office of Taxpayer Correspondence presented a number of recommendations, and in
February 2010, the IRS submitted its Fiscal Year 2011 budget request, which included a proposal
to reduce mail costs by $20 million through efficiencies and savings by:
    •    Eliminating Non-Mandated Notice Inserts. The IRS mails more than 200 million
         notices each year that weigh from 1 to 3 ounces. About one-third of taxpayer notices
         weigh 2 or more ounces. By eliminating inserts, the notice could fall into a lower weight
         category and save the IRS 12.5 cents per notice.
    •    Eliminating Automatic Mailing of U.S. Individual Income
         Tax Return (Form 1040) Tax Packages. Each year, the IRS
         mails more than 17 million tax packages to taxpayers who have
         not used e-filing software or a tax practitioner. By eliminating
         the automatic distribution of Form 1040 tax packages, the IRS
         could save postage costs of 44 cents per package.
    •    Eliminating the Automatic Mailing of Business Tax Products. Each year, the IRS
         mails out more than 31 million business tax products. By eliminating the automatic
         distribution of business tax products, the IRS could save about 26 cents per package in
         postage costs.
The IRS also stated in the budget request that it would generate an additional $6 million in cost
savings by reducing agency-wide printing of selected internal manuals, selected training
materials, and other items.
To identify ways to reduce mail, the IRS initiated a study of State best practices for
eliminating the direct mailing of tax packages to individual taxpayers
In March 2010, several offices and functions within the IRS, along with the Federation of Tax
Administrators,3 began a study to survey individual States that have eliminated direct mailings of
tax packages. The survey results, reported in May 2010, showed that taxpayers understood and
were sympathetic to the financial struggles faced by the participants.4




3
  The Federation of Tax Administrators serves the principal tax collection agencies of the 50 States, the District of
Columbia, Puerto Rico, and New York City. It serves as a source of information and expertise for State
administrators and others on the workings of State tax agencies and systems, as well as issues generally affecting tax
policy and administration.
4
  The participants were the District of Columbia and the States of California, Georgia, Kansas, Louisiana,
Mississippi, and South Carolina.
                                                                                                              Page 5
                               Publishing and Mail Costs Need to Be
                         More Effectively Managed to Reduce Future Costs



The report recommended that the IRS:
   •   Share with taxpayers the decision to discontinue direct paper mailings if in response to
       budget cuts.
   •   Plan in advance for unexpected or potential setbacks, such as a high volume of requests
       for forms and publications.
   •   Inform distribution sites, such as libraries, post offices, and volunteer sites, of the
       impending decision to discontinue direct mailings to taxpayers.
To identify ways to reduce publishing and mail costs, the IRS formed the Printing and
Postage Budget Reduction Task Force
In July 2010, IRS management established the Printing and Postage Budget Reduction Task
Force to recommend proposals to reduce publishing and mail costs and lay the foundation for
long-term implementation of cost reductions for Fiscal Years 2011 and 2012. The Task Force
established three teams from across seven IRS functions
to validate and streamline printing and postage
                                                             The Task Force, consisting of
requirements to achieve the $26 million savings                three teams from across
outlined in the Fiscal Year 2011 budget request and to       seven functions, is assessing
support the President’s Going Green Campaign.                opportunities for cost savings
                                                                     from the elimination or
The IRS Task Force analyzed Fiscal Year 2009 data on             reduction of tax products.
the number of tax packages and publications
automatically mailed to taxpayers to identify ways to
decrease publishing and mail costs. It looked at mailings with the highest volumes and costs.
Taxpayer impact was also considered, as well as related costs, including the costs the IRS could
incur should taxpayers call the IRS to request tax packages or publications.
The Task Force proposals were presented to IRS executives in September 2010. The proposal
included 14 actions with more than $14 million in net savings for Fiscal Year 2011, including
approximately:
   •   $355,000 in savings from redirecting business taxpayers who file U.S. Return of
       Partnership Income (Form 1065), U.S. Corporation Income Tax Return (Form 1120), and
       U.S. Income Tax Return for an S Corporation (Form 1120-S) to IRS.gov to obtain tax
       products.
   •   $1 million in savings from eliminating non-mandatory inserts in all correspondence.
   •   $2 million in savings from ending all non-required, next-day shipments by ground
       transportation.
   •   $6 million in savings from 1) reducing the number of Form 1040 tax packages mailed
       by19 percent, 2) reducing pages in Form 1040 tax packages, 3) sending postcards to

                                                                                                 Page 6
                                     Publishing and Mail Costs Need to Be
                               More Effectively Managed to Reduce Future Costs



           validate taxpayer needs for Form 1040 packages, and 4) tailoring mailings of the
           Estimated Tax for Individuals (Form 1040-ES) and Payment Voucher (Form 1040-V).5
The Task Force also had 11 proposals totaling more than $8 million in net savings that require
further development.
The proposals were generally approved by IRS executives, with some revisions. For example:
      •    The Task Force proposed to reduce Form 1040 mailings by 19 percent and validate
           Form 1040 mailings via a postcard, giving taxpayers the option of sending back the
           postcard should they desire to receive a Form 1040 package by mail. Total elimination of
           Form 1040 mailings would come in Fiscal Year 2012. However, executives decided to
           discontinue mailings of all Form 1040 packages for Fiscal Year 2011.
      •    The Task Force proposed to tailor mailings of (Circular E), Employer’s Tax Guide
           (Publication 15), by mailing Publication 15 only to those filers who filed certain forms
           and to new businesses. The decision was made to discontinue the annual mailings of
           Publication 15 and direct business taxpayers to IRS.gov to obtain this product, but to
           continue to mail Publication 15 to first-time new employers.
The Task Force members believed that reducing the mailings of forms instead of eliminating
them was a more cautious approach, affecting fewer
taxpayers in the short term. They also discussed
mailing postcards to taxpayers in order to validate         The IRS is eliminating all mailings
                                                             of tax packages for Forms 1040,
their need for printed products. In addition, the                1065, 1120, and 1120-S in
functions that own the business tax products                Fiscal Year 2011 in order to meet
recommended conducting additional analysis of the           the cost savings presented in the
potential impacts on taxpayer burden and other              Fiscal Year 2011 budget request.
processes before deciding whether to reduce or
eliminate their tax products. Nevertheless, IRS executives decided to eliminate all mailings of
tax packages for Forms 1040, 1065, 1120, and 1120-S in Fiscal Year 2011 in order to meet the
cost savings presented in the Fiscal Year 2011 budget request.
There are some risks involved with these decisions; for example:
      •    Increased taxpayer burden. Taxpayers who need the tax products they used to receive
           automatically will have to call the IRS, visit local IRS offices called Taxpayer Assistance
           Centers, or go on IRS.gov to obtain them.
      •    Increased costs to the IRS. If a significant number of taxpayers call the IRS or visit a
           Taxpayer Assistance Center, the IRS will be providing the documents at a greater cost
           per document.


5
    See Appendix IV for a list of Task Force proposals and subsequent approvals.
                                                                                               Page 7
                                   Publishing and Mail Costs Need to Be
                             More Effectively Managed to Reduce Future Costs



    •   A reduction in tax compliance. Taxpayers may either forget to file or decide not to file if
        they do not receive a tax package in the mail.
Early communication about the decision to discontinue the automatic mailings should help
mitigate the risks.
On September 24, 2010, the IRS announced that business and individual taxpayers will no longer
receive paper tax packages in the mail from the IRS. In early October, the IRS sent a postcard,
Tax Product Information for Forms 1065/1120/1120S Filers (Notice 1400-A), to businesses that
normally receive their tax forms and publications, and a postcard, Tax Package Information for
Individuals (Notice 1400), to individuals who filed paper returns last year and did not use a tax
preparer or tax software. See Figure 1 for an excerpt from these Notices.
                           Figure 1: Tax Product Information Notices




Source: IRS.gov.

The IRS is discontinuing mailings of all Form 1040 tax packages, but fewer
individual taxpayers use hardcopy publications and forms
More individual taxpayers are e-filing their tax returns and using IRS.gov to obtain tax
information. An analysis of IRS data shows that taxpayers’ use of e-filing and the Internet has
allowed the IRS to steadily decrease the number of automatic mailings of individual tax
products.6
Only 8 percent of individuals who filed in Calendar Year 2009 received tax packages in the mail.
More than 80 percent of individual taxpayers used a preparer or tax preparation software to
prepare their tax returns in Calendar Years 2007 and 2008 and, therefore, had no need for a

6
  Automatic mailings include tax packages and publications that are mailed automatically in the current year because
they were mailed in the prior year or the taxpayer submitted a paper tax return.
                                                                                                            Page 8
                              Publishing and Mail Costs Need to Be
                        More Effectively Managed to Reduce Future Costs



Form 1040 tax package. In addition, the IRS reported that more than 98 million individual tax
returns were e-filed in Fiscal Year 2010. See Figure 2 for the number of tax returns filed on
paper and electronically for the last 3 fiscal years.
      Figure 2: Individual Tax Returns Submitted on Paper and Electronically
                        for Fiscal Years 2008 Through 2010
                                    (in millions)




              Source: IRS Wage and Investment Division October 26, 2010, Business Performance
              Review.

In addition, the IRS continues to offer more information and documents on IRS.gov. Downloads
from IRS.gov have increased from 181 million in Fiscal Year 2008 to 210 million in Fiscal
Year 2010.
Visits to Taxpayer Assistance Centers and orders placed for tax forms through the IRS’s
toll-free telephone lines have decreased
From Fiscal Years 2008 to 2010, 30 percent fewer taxpayers visited Taxpayer Assistance Centers
and 28 percent fewer orders were placed through the toll-free telephone lines to obtain tax forms
and publications. See Figure 3 for the number of contacts to the Taxpayer Assistance Centers
and orders placed through the toll-free telephone lines for Fiscal Years 2008 through 2010.




                                                                                                Page 9
                                 Publishing and Mail Costs Need to Be
                           More Effectively Managed to Reduce Future Costs



  Figure 3: Number of Visits to Taxpayer Assistance Centers and Orders Placed
     Through Toll-Free Telephone Lines for Fiscal Years 2008 Through 2010
                                   (in millions)

                                          Fiscal Year        Fiscal Year       Fiscal Year
  Contacts                                                                                   Percentage
                                             2008               2009              2010
  Taxpayer Assistance Centers                  1.0                0.8              0.7            -30%
  Toll-Free Telephone Orders                   2.5                2.1              1.8            -28%
Source: IRS Field Assistance Office and the Media and Publications function.

The IRS is discontinuing mailings of all Forms 1065, 1120, and 1120-S tax
packages, but fewer businesses use or need hardcopy publications and forms
More than 11 million business tax returns were e-filed in Fiscal Year 2010. Although about
74 percent of businesses submitted their tax returns on paper, many businesses use preparers to
prepare their tax returns, negating the necessity for business paper tax products. See Figure 4 for
the number of business tax returns filed on paper and electronically for the last 3 fiscal years.
      Figure 4: Business Tax Returns Submitted on Paper and Electronically
                       for Fiscal Years 2008 Through 2010
                                   (in millions)




                Source: IRS Wage and Investment Division October 26, 2010, Business Performance
                Review.

Automatic mailings of business tax products have been declining
A review of IRS records shows that automatic mailings to small business, self-employed, and
nonprofit taxpayers have declined more than 40 percent from Fiscal Years 2007 to 2010.

                                                                                                   Page 10
                                  Publishing and Mail Costs Need to Be
                            More Effectively Managed to Reduce Future Costs



Automatic mailings include 27 tax products – from reminder postcards and tax packages to
publications and coupon books used to submit payments. See Figure 5 for the total automatic
mailings to small business, self-employed, and nonprofit taxpayers as reported by the IRS.
             Figure 5: Automatic Mailings to Small Business, Self-Employed,
               and Nonprofit Taxpayers for Fiscal Years 2007 Through 2010
                                       (in millions)

          Fiscal Year              2007            2008             2009              20107
                                  Mailing         Mailing          Mailing          Mailing        Percentage
        Type of Taxpayer
                                  Quantity        Quantity         Quantity         Quantity        Decrease

    Tax Exempt and
    Government Entities              1.6             1.0              .536             1.0             38%
    Small Business/
    Self-Employed                   44.6            27.8              25.9             24.9            44%
    Totals                          46.2            28.8              26.4             25.9            44%

Source: The Media and Publications function.

A review of the 19 tax packages and 5 publications automatically mailed to small business,
self-employed, and nonprofit taxpayers showed all are available on IRS.gov. Four tax packages
and one publication are part of the Fiscal Year 2011 cost saving proposal and have been
eliminated from the list of tax products automatically mailed.
Limited testing showed that most businesses and nonprofit taxpayers do not need or want to
receive tax products by mail. We interviewed a sample of 25 businesses to determine their need
for mailed tax products. Of the 25 businesses contacted, most did not need to receive tax
packages or forms via mail from the IRS and more than one-half have called the IRS’s toll-free
telephone lines or visited IRS.gov.
    •     23 (92 percent) did not believe that eliminating mailings of certain business tax products
          would affect their businesses.
    •     21 (84 percent) did not believe it was necessary to receive tax packages and forms from
          the IRS via the mail.
    •     19 (76 percent) have accessed information via IRS.gov.
    •     14 (56 percent) have made calls to the IRS toll-free telephone line.
    •     7 (28 percent) made visits to Taxpayer Assistance Centers.


7
 For Fiscal Year 2010, some costs and quantities were estimates based on a 2 percent increase. The IRS was in the
middle of producing products for Fiscal Year 2010 and will not have final data until late Fiscal Year 2011.
                                                                                                         Page 11
                                   Publishing and Mail Costs Need to Be
                             More Effectively Managed to Reduce Future Costs



Although electronic services, such as IRS email subscriptions,8 are available to businesses, tax
professionals, and payers of income, few of the businesses contacted use these services. Only
3 (12 percent) of the 25 businesses contacted subscribed to the IRS email subscriptions;
6 (24 percent) were aware that this service is available. Only 1 (4 percent) business contacted
did not have access to the Internet because it was located in a rural area. However, the business’
accountant had access to the Internet.

Controls need to be implemented as the IRS proceeds with the Printing and
Postage Budget Reduction Task Force proposals
The Printing and Postage Budget Reduction Task Force made 25 proposals to save publishing
and mail costs. Fourteen of the proposals were for Fiscal Year 2011 implementation, and an
additional 11 are for further development in Fiscal Year 2012 and beyond. As part of the
proposal presented to IRS executives in September 2010, the Media and Publications function
stated that it will monitor taxpayer behavior to gauge any negative impact on taxpayers or fiscal
resources, including:
    •    Call volume increases.
    •    Changes in filing patterns.
    •    Changes in compliance.
    •    Increases in IRS.gov traffic.
    •    Increases in Taxpayer Assistance Center traffic.
The proposal also suggests establishing projects to identify other costs savings.
However, the Task Force proposal did not include:
    •    Documentation to show the methodology used to make the Task Force’s proposals—
         what tax packages and publications were considered, how they were prioritized, etc.
    •    How the estimates were calculated or validated. A minor calculation error and some
         incomplete figures were found in the total cost of the Task Force’s 14 proposals for
         Fiscal Year 2011.
    •    How the IRS will measure the results or the cost savings of the proposals.
When asked how the IRS identified or estimated the cost savings in the Fiscal Year 2011 budget
request, IRS officials stated that the proposal was a starting point to identifying options for

8
 Taxpayers may subscribe to free IRS email services that provide news releases, tax tips and information, etc.
Certain subscriptions target specific populations of taxpayers, including small businesses, payroll preparers, and tax
professionals. In addition, the IRS provides e-Services, a suite of web-based products that allows tax professionals
and payers to conduct business with the IRS electronically.
                                                                                                             Page 12
                              Publishing and Mail Costs Need to Be
                        More Effectively Managed to Reduce Future Costs



reducing postage costs. Therefore, they did not maintain documentation to support the estimate
or the methodology used to estimate the savings, nor did they validate the data or cost savings
estimate.
Controls should be in place to ensure the methodology used to identify and estimate the cost
savings is documented and that all data are accurate and complete. The controls should also
include creating and maintaining records to measure total cost savings and to determine the
effect on taxpayers. Without these controls, the IRS cannot assure stakeholders that its proposed
cost reduction efforts have been implemented, are effective, or show their effect on taxpayers.
Fragmented controls affect the IRS’s ability to more effectively manage and reduce future
publishing and mail costs
The IRS’s long-term ability to provide stakeholders with cost savings data and efficiently
respond to future budget reductions and taxpayer needs for tax information is dependent on the
availability of cross-functional cost data and an effective monitoring process. The Media and
Publications function funds the publishing and distribution of the majority of IRS documents.
However, it does not control or own any of its products, and the administration of the publishing
and postal budget crosses different IRS business units, offices, and functions.
The Task Force, which was in the process of collecting and validating data and formulating the
proposals for the publishing and mail cost savings, faced numerous challenges. Final figures
were not always available and the Task Force had to use estimates or outdated costs to quantify
cost savings. The offices and functions that own the tax products were reluctant to make
recommendations without additional analysis to determine the potential impact on taxpayers.
Consequently, the Task Force proposed only a 19 percent reduction in the automatic mailing of
Form 1040 packages in Fiscal Year 2011. In addition, the Task Force recommended that the IRS
only reduce some business forms and publications for the 2011 Filing Season, while allowing the
offices and functions to conduct additional analysis. However, in order to meet the Fiscal
Year 2011 proposed cost savings, IRS management decided to eliminate all individual tax
packages and eliminate some business tax products without conducting additional analysis.
Management will continue to encounter these challenges until they develop a formal process or
strategy to continually collect cost data and assess and monitor opportunities for cost reduction
and efficiencies across functions. The IRS needs to implement sufficient controls and
procedures to ensure the methodology for the decisions are documented and that the data used
are accurate and complete. A long-term strategy should also include a plan to monitor results to
ensure the IRS is achieving expected savings and not adversely affecting taxpayers or
compliance.
Further, in its assessment of the IRS budget justification for Fiscal Year 2011, the Government
Accountability Office recommended that the IRS provide Congress with information comparing


                                                                                          Page 13
                                  Publishing and Mail Costs Need to Be
                            More Effectively Managed to Reduce Future Costs



projected savings to actual savings in the year following the budget’s implementation.9 The
Government Accountability Office acknowledged that this may be challenging as factors may
change and data may be initially incomplete, but emphasized that without actual savings
information, Congress and other stakeholders will not know whether the IRS realized all or part
of the savings it projected for Fiscal Year 2011.

Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 1: Establish and implement a system of internal controls to ensure that
savings and cost data related to the elimination or reduction of mailing tax products are current
and reliable.
        Management’s Response: IRS management agreed with this recommendation and
        has implemented it under the Postage Budget Reduction project. For direct mailing, the
        IRS has implemented a system to ensure that savings and cost data related to the
        elimination or reduction of mailing tax products are current and reliable, and plans to
        continue to update the data as savings are achieved. In addition, the IRS has developed a
        data gathering tool to capture the costs and savings. The methodology and assumptions
        were documented. Each initiative has an owner who is responsible for providing monthly
        updates. The Director, Media and Publications, Wage and Investment Division, reviews
        the data monthly. This process and implementation will be reviewed annually during
        operational reviews.
Recommendation 2: Develop a strategy to ensure that publishing and mail costs are
continually evaluated. The strategy should include goals and measures, as well as steps to
monitor the effect on taxpayer burden and compliance.
        Management’s Response: IRS management agreed with this recommendation and
        has developed strategies to ensure that publishing and mail costs are continually
        evaluated. As part of its annual program planning process, the IRS identifies the short-
        and long-term initiatives that it plans to implement. The Wage and Investment Division
        and the Small Business/Self Employed Division Research functions have developed a
        comprehensive strategy to measure the effect on compliance and burden for the current
        proposals. Their service will also be requested for all strategies that could potentially
        affect taxpayer burden and compliance. Goals and measures will be continually assessed
        as research data are available.



9
 Internal Revenue Service: Assessment of Budget Justification for Fiscal Year 2011 Identified Opportunities to
Enhance Transparency (GAO-10-687R, dated May 2010).
                                                                                                         Page 14
                                   Publishing and Mail Costs Need to Be
                             More Effectively Managed to Reduce Future Costs



                                                                                                   Appendix I

          Detailed Objective, Scope, and Methodology

Our overall objective was to evaluate the IRS’s efforts to reduce publishing and mail costs for
tax forms and publications sent to businesses and nonprofits. To accomplish this objective, we:
I.       Evaluated IRS strategies, initiatives, and planned research studies for reducing costs.
         A. Determined the IRS’s plans to use the information obtained from the research studies
            and proposed project plans to eliminate certain direct mailing of business and
            nonprofit tax products.
             1. Determined the IRS’s plans to survey businesses and nonprofits to assess the
                impact of eliminating certain direct mailing of tax products.
             2. Determined if the IRS had defined the demographics of businesses and nonprofit
                organizations.
             3. Determined the IRS’s marketing strategy to inform businesses and nonprofits that
                it eliminated direct mailing of tax products.
         B. Analyzed the results of the IRS’s plans from Step I.A. and determined if it considered
            the possibility of increased taxpayer burden or the effect on tax compliance.
II.      Selected a sample of businesses to determine their needs for paper tax products. We
         identified the population of businesses and nonprofits that would potentially be affected.
         A. Received data from the Business Master File1 and the IRS that are routinely tested.
            We evaluated the reliability of data captured by randomly selecting five records from
            one file and six from the other file and researching the tax records on the Integrated
            Data Retrieval System.2 We queried the data extract to identify the volume of
            businesses that filed electronically or by paper and the volume of paper filers that
            received a tax package from our population of 24,854,390 Business Master File
            records.
         B. Interviewed a sample of 25 businesses from Step II.A. and determined their needs for
            access to tax products. Using the Enterprise Guide, we queried the data extract for
            businesses and nonprofits in the State of Georgia for Exempt Organization Business

1
  The IRS database that consists of Federal tax-related transactions and accounts for businesses. These include
employment taxes, income taxes on businesses, and excise taxes.
2
  The Integrated Data Retrieval System is the IRS computer system capable of retrieving or updating stored
information; it works in conjunction with a taxpayer’s account records.
                                                                                                           Page 15
                                    Publishing and Mail Costs Need to Be
                              More Effectively Managed to Reduce Future Costs



             Income Tax Return (Form 990-T), U.S. Return of Partnership Income (Form 1065),
             U.S. Corporation Income Tax Return (Form 1120), and U.S. Income Tax Return for
             Cooperative Associations (Form 1120-C) for Tax Period3 2009 only. We pulled a
             random sample of 25 businesses and nonprofits to determine their needs for access to
             tax products. We used a random sample because we were not making projections and
             wanted our selections to be unbiased.
III.     Analyzed the data and methodology used to estimate the $26 million publishing and mail
         cost savings proposed in the IRS’s Fiscal Year 2011 budget request to determine if they
         were accurate, if the methodology for the proposal was sound, and how the IRS will
         measure the actual savings, including the effect on taxpayers.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the IRS process used for publishing and
mailing tax forms, publications, and tax packages to businesses and nonprofits. We evaluated
these controls by interviewing management, conducting research, and analyzing reasons why
certain tax products were printed and mailed automatically.




3
 A tax period refers to each tax return filed by the taxpayer for a specific period (year or quarter) during a calendar
year for each type of tax.
                                                                                                               Page 16
                             Publishing and Mail Costs Need to Be
                       More Effectively Managed to Reduce Future Costs



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Augusta R. Cook, Director
Wilma Figueroa, Audit Manager
Frank Jones, Audit Manager
Tanya Adams, Lead Auditor
Geraldine Vaughn, Senior Auditor
Andrea Hayes, Auditor
Nelva Usher, Auditor
Brian Hattery, Information Technology Specialist
Kevin O’Gallagher, Information Technology Specialist




                                                                                    Page 17
                             Publishing and Mail Costs Need to Be
                       More Effectively Managed to Reduce Future Costs



                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Deputy Chief Information Officer for Strategy/Modernization OS:CTO
Deputy Commissioner of Operations, Wage and Investment Division SE:W
Deputy Commissioner of Services, Wage and Investment Division SE:W
Deputy Associate Chief Information Officer, Applications Development OS:CTO:AD
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Media and Publications, Wage and Investment Division SE:W:CAR:MP
Director, Research, Wage and Investment Divison SE:W:PRA:R
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Program Evaluation and Improvement, Wage and Investment Division
SE:W:S:PRA:PEI




                                                                                     Page 18
                             Publishing and Mail Costs Need to Be
                       More Effectively Managed to Reduce Future Costs



                                                                                      Appendix IV

                Proposed Cost Reduction Actions
                  Approved for Implementation

       Printing and Postage Budget
Action Reduction Task Force                                 Actions Approved
       Proposed Actions
  1    Send all non-required, next-day shipments by         Reduce the costs of administrative mail – this
       ground transportation.                               includes limiting next-day air shipments.
 2-4   Reduce U.S. Individual Income Tax Return             Discontinue mailings of Form 1040 packages.
       (Form 1040) package mailings by 19 percent;
       reduce page counts in Form 1040 Packages.
       Validate Form 1040 package mailings via
       postcard (assume 25 percent of postcards will
       be returned).
  5    Tailor the mailing of Estimated Tax for              Tailor the mailing of Form 1040-ES to drop all
       Individuals (Form 1040-ES) tax packages, which       tax returns that were prepared by software,
       include vouchers.                                    because printers can now print high-quality
                                                            vouchers.
  6    Tailor the mailing of (Circular E), Employer’s Tax   Discontinue the annual mailings of
       Guide (Publication 15).                              Publication 15 and direct business taxpayers
                                                            to IRS.gov to obtain this product. Continue to
                                                            mail Publication 15 to first-time new
                                                            employers.
  7    Redirect U.S. Return of Partnership Income           Eliminate the direct mailing of tax packages for
       (Form 1065), U.S. Corporation Income Tax             Forms 1065, 1120, and 1120-S. These forms
       Return (Form 1120), and U.S. Income Tax              are available at IRS.gov and various
       Return for an S Corporation (Form 1120-S)            distribution outlets. Notify affected taxpayers
       customers to IRS.gov.                                via postcard.
  8    Redirect Federal Employment Tax Forms                Eliminate Publication 393 and redirect
       (Publication 393) customers to the Social            taxpayers to SSA.gov. Notify affected
       Security Administration Internet site, SSA.gov.      taxpayers via postcard.
  9    Redirect Split-Interest Trust Information Return     Eliminate Package 5227 and redirect
       (Form 5227) customers to IRS.gov.                    customers to IRS.gov. Notify affected
                                                            taxpayers via postcard.
  10   Eliminate non-mandatory inserts in all               Eliminate non-mandatory inserts in all
       correspondence.                                      correspondence.



                                                                                                Page 19
                                 Publishing and Mail Costs Need to Be
                           More Effectively Managed to Reduce Future Costs




       Printing and Postage Budget
Action Reduction Task Force                                       Actions Approved
       Proposed Actions
  11      Modify procedures to avoid generating interim           Require IRS employees to suppress the
          letters.                                                automated adjustment notice when it
                                                                  duplicates a correspondex notice (automated
                                                                  letters with standardized verbiage).
  12      Reduce We Need Your Assistance in Updating              Reduce Letter 2797 issuance by more upfront
          Our Records (R U There? Letter) (Letter 2797)           vendor research.
          issuance by greater vendor research.
  13      Suppress issuance of Undeliverable Refund               Suppress issuance of CP-31/231 for
          notice (Computer Paragraph 31)/Undeliverable            Undeliverable as Addressed addresses.
          Refund Check (Computer Paragraph 231) for
          Undeliverable as Addressed addresses.
  14      Eliminate the Employer Identification Number            Eliminate CP-575 for online Employer
          Assignment Notice (Computer Paragraph 575)              Identification Number applicants.
          mailing for online Employer Identification
          Number recipients.
Source: IRS’s Printing and Postage Budget Reduction Task Force.




                                                                                                    Page 20
              Publishing and Mail Costs Need to Be
        More Effectively Managed to Reduce Future Costs



                                                  Appendix V

Management’s Response to the Draft Report




                                                          Page 21
      Publishing and Mail Costs Need to Be
More Effectively Managed to Reduce Future Costs




                                                  Page 22
      Publishing and Mail Costs Need to Be
More Effectively Managed to Reduce Future Costs




                                                  Page 23
      Publishing and Mail Costs Need to Be
More Effectively Managed to Reduce Future Costs




                                                  Page 24
      Publishing and Mail Costs Need to Be
More Effectively Managed to Reduce Future Costs




                                                  Page 25
      Publishing and Mail Costs Need to Be
More Effectively Managed to Reduce Future Costs




                                                  Page 26
